    AUDIT REPORT

U.S. Fish and Wildlife Service
  Federal Assistance Grants
 Administered by the State of
  Wyoming, Game and Fish
Department, from July 1, 2000,
    through June 30, 2002




   Report No. R-GR-FWS-0030-2003

                         April 2004
               U
               Unniitteedd SSttaatteess D          meenntt ooff tthhee IInntteerriioorr
                                        Deeppaarrttm
                          OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191
                                                                                          April 22, 2004


Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Joe Ansnick
           Director of External Audits

Subject:   Final Audit Report on U.S. Fish and Wildlife Service Federal Assistance Grants
           Administered by the State of Wyoming, Game and Fish Department from July 1,
           2000, through June 30, 2002 (No. R-GR-FWS-0030-2003)


        This report presents the results of our audit of costs incurred by the State of Wyoming
Game and Fish Department (Department) under its hunting and fishing programs and costs
claimed under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS) from
July 1, 2000, through June 30, 2002 (see Appendix 1).

       We found that the Department did not obtain FWS instructions or FWS Regional
Director's approval before conveying real property interests that had been acquired with Federal
Assistance funds; and did not ensure that all boating access facilities constructed with Federal
Assistance funds were adequately maintained.

         The Department and FWS Region 6 responded to a draft of this report on March 25,
2004. The Department concurred with one recommendation, non-concurred with one
recommendation, and did not state concurrence or non-concurrence with the remaining four
report recommendations. The Region 6 office did not state concurrence or non-concurrence with
the six report recommendations. Based on the responses we modified the findings as necessary
to clarify the report. We included the Department and FWS responses after our
recommendations and summarized the status of recommendations in Appendix 4.

        Please provide us with a written response to this report by July 26, 2004. Your response
should provide the information requested in Appendix 4. If you have any questions regarding
this report, please contact me at (703) 487-5345 or John Kerrins, Audit Team Leader, at (303)
929-3857.

cc: Regional Director, Region 6, U.S. Fish and Wildlife Service
              IIN
                NTTR
                   ROOD
                      DUUC
                         CTTIIO
                              ONN

             The Pittman-Robertson Wildlife Restoration Act, as amended
Background   (16 U.S.C. 669) and the Dingell-Johnson Sport Fish Restoration
and Scope    Act, as amended (16 U.S.C. 777), (the Acts) authorize FWS to
             provide Federal Assistance grants to states to enhance their sport
             fish and wildlife programs. The Acts provide for FWS to
             reimburse the states up to 75 percent of the eligible costs incurred
             under the grants. The Acts specify that state hunting and fishing
             license revenues cannot be used for any purpose other than the
             administration of the state’s fish and game agencies.

             We performed an audit of Federal Assistance grants to the
             Wyoming Game and Fish Department as requested by FWS. The
             objective of our audit was to evaluate: (1) the adequacy of the
             Department’s accounting system and related internal controls;
             (2) the accuracy and eligibility of the direct and indirect costs
             claimed under the Federal Assistance grant agreements with FWS;
             (3) the adequacy and reliability of the Department’s hunting and
             fishing license fees collection, certification, and disbursement
             process; and (4) the adequacy of the Department’s asset
             management system and related internal controls with regard to
             purchasing, maintenance, control and disposal; and (5) the
             adequacy of the Department’s compliance with the Acts’ assent
             legislation requirements. The audit also included an analysis of
             other issues considered sensitive and/or significant by FWS
             Regional staff. The audit work at the Department covered claims
             totaling approximately $35 million on Federal Assistance grants
             from FWS that were open during the State’s fiscal years ended
             June 30, 2001, and 2002 (see Appendix 1).

             Our audit was performed in accordance with government auditing
             standards issued by the Comptroller General of the United States.
             Accordingly, we included such tests of records and other auditing
             procedures that we considered necessary under the circumstances.
             We relied on the work of the State of Wyoming Single Audit
             Report auditors to the extent possible in order to avoid a
             duplication of audit effort. Our tests included an examination of
             evidence supporting selected expenditures charged by the
             Department to the grants; interviews with employees to ensure that
             all personnel costs charged to the grants were supportable; and a
             review of the Department's use of fishing and hunting license
             revenues to determine whether the revenues had been used for
             program purposes. We did not evaluate the economy, efficiency,
             and effectiveness of the Department’s operations.


                               2
              Our audit was performed at the Department’s headquarters in
              Cheyenne, Wyoming. We also conducted work at selected
              regional offices, Wildlife Habitat Management Areas, public
              access sites, hatcheries, a bird farm, and an animal disease research
              center (see Appendix 3).

              On February 10, 1997, we issued audit report No. 97-E-440,
Prior Audit   “Audit of U.S. Fish and Wildlife Service Federal Assistance
Coverage      Grants to the State of Wyoming, Fiscal Years 1994 and 1995,
              Supplemental Report.” We reviewed this report and followed up
              on all findings to determine whether they had been resolved prior
              to our review. One finding in this report, relating to maintenance
              of boating access facilities, was previously reported and had not
              been addressed satisfactorily. Accordingly, it is included in the
              Results of Audit section of this report as finding B.




                                3
                                  R
                                  REESSU
                                       ULLT
                                          TSS O
                                              OFFA
                                                 AUUD
                                                    DIIT
                                                       T

                                    We found that the Department’s:
Summary
                                    ¾ Accounting system and related internal controls adequately and
                                      accurately accounted for grant and license fee receipts and
                                      disbursements.
                                    ¾ Costs were accurately reported and claimed.
                                    ¾ Asset management system accurately identified and tracked
                                      personal and real property with regard to acquisition,
                                      maintenance, control, and disposal.

                                    In addition, the State of Wyoming had adequate legislation that
                                    assented to the provisions of the Acts and prohibited the use of
                                    license fees for anything other than the administration of the
                                    Department.

                                    However, we concluded that the Department:

                                    ¾ Did not obtain FWS instructions or FWS Regional Director's
                                      approval before conveying real property interests that had been
                                      acquired with Federal Assistance funds.
                                    ¾ Did not ensure that all boating access facilities constructed
                                      with Federal Assistance funds were adequately maintained.

                                    During the period July 1, 1992, through June 30, 2002, the
A. Real Property                    Department conveyed 34 real property interests to other entities
   Disposals                        (see Appendix 2). Many of these conveyances were easements or
                                    rights-of-way. Based on evidence1 made available to us, 25 of the
                                    34 real property interests were acquired with Federal Assistance
                                    funds. The Department obtained neither FWS instructions nor the
                                    approval of the FWS Regional Director before disposing of 23 of
                                    the 25 property interests. The two remaining disposals received
                                    FWS instructions as well as Regional Director approval prior to
                                    their conveyance.




1
 We did not obtain and review accounting or grant records related to the acquisition of the real property that was
conveyed. In order to determine whether property was acquired with Federal Assistance funds, we considered a
Departmental database of real property transactions, as well as maps, lists, and land cards that identified the source
of funds generally used to acquire land within a Department-managed unit as sufficient evidence for this finding.

                                                           4
The Department should obtain FWS’s instructions or the Regional
Director’s approval prior to conveying real property interests that
were acquired with Federal Assistance funds. When it is
determined that real property acquired under a Federal Assistance
grant is no longer needed for the originally authorized purpose,
43 CFR 12.71(c) requires the Department to request disposition
instructions from FWS. In addition, the Service Manual requires
approval from the Regional Director prior to granting easements
through lands acquired with Federal Assistance funds (522 Service
Manual 6.7E). The Service Manual allows the Regional Director
to grant blanket approval for easements, of which rights-of-way are
one type, if the State has an adequate system for reviewing and
granting easements that protects the Federal Assistance Program
interests in the land. Furthermore, 50 CFR 80.14 requires real
property acquired with Federal Assistance funds to continue to
serve the purpose for which it was acquired and prescribes
remedies when: (1) an agency loses control, (2) a use interferes
with accomplishing the purpose of the acquisition, or (3) the real
property is no longer needed.

We identified several reasons why the Department did not notify
FWS prior to disposing of land acquired with Federal Assistance
funds:

¾ The Department’s database did not always indicate the source
  of funding and, when Federal Assistance funds were indicated,
  the Federal Assistance grant number was not always identified.
  The Department began using Federal Assistance funds to
  acquire land more than 50 years ago. Moreover, because the
  database was so old, staff may not have been convinced that
  specific parcels of land were acquired with Federal Assistance
  funds even though the Department’s real property inventory
  system indicated that they had been acquired with Federal
  Assistance funds.
¾ The Department’s disposal process did not include determining
  whether Federal Assistance funds were used in the acquisition,
  requesting FWS instructions, or obtaining FWS approval.
¾ Some Departmental employees believed that since Wyoming is
  a comprehensive management state, the Department does not
  need to notify FWS prior to land disposal.

Some Departmental employees believed that transactions of little
consequence, such as correcting mistakes, straightening
boundaries, and granting easements along existing public roads,
did not require the Department to request instructions or approval
from FWS.



                  5
                  In addition, some staff within the Department and the FWS
                  believed that land disposal procedures should be changed or
                  clarified. FWS approved an amendment to the Department’s grant
                  in 1998 with the understanding that additional procedures would
                  be developed for granting easements or rights-of-way on property
                  acquired with Federal Assistance funds. However, no such
                  additional procedures were developed.

Recommendations   We recommend that the FWS work with the Department to:

                     1. Develop and maintain a list of real property for which it has
                  management responsibility that identifies parcels as to how they
                  were acquired; i.e., with license fees, Federal Assistance, or other
                  funds.

                     2. Confirm that the 34 disposals of land interests listed in
                  Appendix 2 involved real property acquired with Federal
                  Assistance funds.

                     3. Apply the provisions of 50 CFR 80.14(b) and 43 CFR
                  12.71 (c) to each disposal of land interests in Appendix 2 that
                  involved real property acquired with Federal Assistance funds.

                      4. Ensure that the Department’s real property disposal process
                  includes procedures to determine whether Federal Assistance funds
                  were used in the acquisition, and if so, request FWS instructions
                  prior to transfer or sale, and obtain FWS Regional Director’s
                  approval for the intended method of disposition.

                      5. Develop and clarify procedures for granting easements or
                  rights-of-way on property acquired with Federal Assistance funds.

Department        The Department indicated that it has taken action relating to
Response          Recommendations A.1, A.4, and A.5. However, the Department
                  did not concur with all of the properties and information included
                  in Appendix 2 (pertaining to Recommendation A.2) and did not
                  respond to finding A.3. The Department took issue with the
                  information in Appendix 2 because:

                  ¾ Property disposals such as Grey’s River occurred well before
                    the audit period and therefore should not have been included in
                    the audit scope without obtaining the permission of the
                    Director, U.S. Fish and Wildlife Service.
                  ¾ The prior audit covered the two-year period ending June 30,
                    1995, foreclosing any retroactive audit findings predating that
                    audit period.



                                    6
                 Despite these two contentions, in order to bring closure to these
                 disposals, the Department would request retroactive authorization
                 for disposal of the listed properties. In addition, for future
                 disposals, it intends to request the appropriate authorization.

  FWS            FWS requested that all the properties in Appendix 2 remain in the
  Response       report because the entire list is relevant to the finding and should
                 be resolved in the context of the audit. FWS added that it would
                 negotiate final resolution of each real property disposal during
                 preparation of the corrective action plan.

  OIG            All real property acquired with Federal Assistance funds,
  Comments       regardless of when it was acquired, must be properly accounted for
                 and available for Federal Assistance purposes until it is disposed of
                 in accordance with regulations. All properties originally cited
                 remain in Appendix 2. Although we believe the Department’s
                 actions regarding Recommendations A.1, A.4, and A.5 may be
                 acceptable solutions, we do not consider the responses sufficient to
                 resolve any of the findings. Accordingly, FWS should address
                 these findings in its corrective action plan.

                 Since 1989, the Department constructed 52 boating access projects
B. Boating       using Federal Assistance funds. Most of these projects (36 of 52)
   Access        were located on lands managed by other entities, such as Wyoming
   Facility      State Parks and the U.S. Forest Service. Prior to constructing these
                 projects, the Department entered into agreements with these
   Maintenance   entities that made them responsible for the maintenance of the
                 boating access facilities.

                 During our site visits, we observed that most boating access
                 facilities were adequately maintained. However, maintenance at
                 one location has been repeatedly deficient. In our 1997 prior audit,
                 we reported, “…the handicapped access at some facilities was
                 inadequate or had deteriorated since site construction completion.”
                 In 2001, FWS officials found inadequate maintenance of boating
                 access facilities on Fremont Lake. Specifically, tall thick weeds
                 impeded access to both a dock and comfort station constructed to
                 be wheelchair accessible. Responsible Department officials said
                 that the 2001 maintenance deficiency at Fremont Lake had been
                 discussed with the responsible land management agency, the U.S.
                 Forest Service. However, we found inadequate maintenance of
                 the same boating access facility at Fremont Lake during our site
                 visit in August 2003.

                 According to 50 CFR 80.20, the Department must ensure that other
                 entities maintain capital improvement projects throughout the
                 useful life of the facilities. A reasonable process to achieve this
                 would include performing periodic inspection of the facilities and

                                   7
                 requesting that the other entity perform better maintenance when
                 deficiencies are found. If the initial request fails to improve
                 maintenance, the Department should take more aggressive action
                 such as writing letters, disapproving future projects on entity
                 managed areas, or performing the maintenance at Department
                 expense.

                 The Department did not implement procedures to document
                 inspections and to enforce compliance with its agreements when
                 maintenance by other entities was found to be inadequate. As a
                 result, uncut vegetation at Fremont Lakes continued to
                 compromise wheelchair accessibility.

Recommendation   We recommend that the FWS work with the Department to
                 develop procedures to document inspections and enforce
                 compliance with agreements with respect to boating access facility
                 maintenance.

Department       The Department concurred with the finding and recommendation
Response         and stated that it has already contacted the U. S. Forest Service
                 Supervisor who has agreed to monitor the Forest Service’s
                 responsibilities. In addition, the Department plans to inspect all
                 boating access facilities for repairs and maintenance at least once
                 during the 5-year grant period and include documentation in its
                 files. The Department also plans to strengthen compliance
                 requirements in its contracts with other entities to define repair and
                 maintenance requirements, establish time frames for compliance,
                 and include other provisions to assist in enforcing such
                 compliance.

FWS              FWS will consider the Department’s comments in preparing the
Response         corrective action plan.

OIG              We consider the Department’s actions to be appropriate. FWS
Comments         should address the finding in corrective action plan.




                                   8
                                                                                              APPENDIX 1



                           STATE OF WYOMING
                      FISH AND GAME DEPARTMENT
                FINANCIAL SUMMARY OF REVIEW COVERAGE


                                                                     Questioned Costs
           Grant               Grant              Claimed                         Federal
          Number              Amount               Costs             Total         Share       Note
     FW-17-P-18           $10,072,920          $13,993,385              $0                        1
     FW-17-P-19             15,241,045          21,111,020               0                        1
           Totals         $25,313,965          $35,104,405              $0

Note:

    1. All costs claimed by the Department were incurred; however, the Department excluded costs for the
acquisition of personal property from its Federal Assistance claims.




                                                      9
                                                                                            APPENDIX 2

                               STATE OF WYOMING
                          GAME AND FISH DEPARTMENT
                       REAL PROPERTY INTEREST DISPOSALS
                        JULY 1, 1992 THROUGH JUNE 30, 2002

                                                                                Price or   Federal
                                                                              Fair Market Assistance
   Date             Unit          Conveyance              Purpose                Value    Acquired Notes
05/21/2002   Ocean Lake            Bill of sale   Building disposal            $18,176      YES
04/08/2002   North Platte River       Deed        Relinquish road right             0      YES
             Foote                                of way
02/25/2002   North Platte River    Easement       Overhead power                  175       NO
             Robertson Road                       line right-of-way
02/25/2002   North Platte River    Easement       Overhead telephone              175       NO
             Robertson Road                       line right-of-way
02/25/2002   Rawhide               Easement       Road right-of-way                50       NO
                                                  across 0.4 acres
05/18/2000   Medicine Lodge        Easement       Telephone right-of-way            0      YES
                                                  to Department facilities
08/09/2000   Red Rim               Easement       Oil & gas pipeline            10,000     YES
                                                  right-of-way
02/22/2000   North Platte River    Easement       Fiber optics                    300      YES
             Ft. Steele                           right-of-way
12/28/1999   Wick                  Easement       Wind towers on                26,540     YES
                                   released       13.906 acres
08/27/1999   Cow Creek                Deed        Sold 683 acres with          221,000      NO
             Mountain                             some reservations
08/26/1999   Ocean Lake            Bill of sale   Building disposal             22,300      YES
08/24/1999   Wick                     Deed        Sold 5.74 acres to             1,725     YES
                                                  WYDOT for sewage
                                                  lagoon
08/03/1999   Wick                  Easement       Fiber optics right-of-way       210       YES
07/12/1999   Laramie Peak             Deed        Real property exchange        18,600      YES      1
05/20/1999   Red Rim               Easement       Fiber optics right-of-way     18,679      YES
             Ocean Lake            Bill of sale   Auction of cabin              18,176      YES
04/01/1999   North Platte River    Easement       Road right-of-way              3,835      NO
             Speck                                to County
03/10/1999   Rawhide               Easement       Nonexclusive use                 10       NO
                                                  of existing public
                                                  access road
10/19/1998   Renner                Easement       Use of 2 acres for              500      YES
                                                  water catchment
07/20/1998   Pennock Mountain      Easement       Nonexclusive use                568      YES       2
                                                  of existing public
                                                  access road
07/07/1998   Spence Moriarity      Easement       Replaces right-of-way          7,454      NO
                                                  access to Alexanders




                                                     10
                                                                                                   APPENDIX 2

                                                                                  Price or   Federal
                                                                                Fair Market Assistance
     Date             Unit           Conveyance              Purpose               Value    Acquired Notes
05/22/1998     Rawhide                   Deed       Real property exchange           $71          NO           3
                                                    to straighten boundary
04/03/1997     Johnson Reservoir         Deed       Department relieved of       (40,000)         YES
                                                    obligation to repair and
                                                    maintain reservoir
03/11/1997     Spence Moriarity        Easement     Realignment of                     0          NO
                                                    County road
03/07/1997     Big Laramie River       Easement     Fiber optics box and line        435          YES
               Jelm                                 right-of-way
03/07/1997     Soda Lake               Easement     Road right-of-way              7,922          YES          4
                                                    to County
12/19/1996     Wick                    Easement     Nonexclusive right-of-           420          YES
                                                    way on existing road
11/06/1996     Red Rim                Agreement     Oil & gas pipeline               520          YES
                                                    right-of-way
05/30/1996     Salt River                Deed       Correct mistake on                 0          YES
                                                    hunting and fishing
                                                    easement
09/25/1995     Wick                      Deed       Wind towers on about           1,350          YES          5
                                                    30 acres
12/18/1992     Greys River               Deed       Sold 65.84 acres to          377,000          YES
                                                    Riverview Meadows
                                                    Company
11/19/1992     Greys River               Deed       Sold 31.68 acres              38,000          YES
                                                    to Town
11/19/1992     Greys River              Permit      Use of 17 acres for                0          YES
                                                    wastewater treatment
                                                    and park
08/18/1992     Billy Miles               Deed       Fee title exchanged for       56,559          YES          6
                                                    conservation easements
08/05/1992     Greys River               Deed       Sold 46.25 acres              55,500          YES
                                                    to WYDOT

Notes:

1. The Department exchanged real property interests with a fair market value of $18,600 for real property interests
   of equal or greater value.
2. The Department exchanged vehicular right-of-way with a fair market value of $568 for road maintenance valued
   at $568.
3. The Department exchanged 0.354 acres to reestablish a portion of the boundary line between the parties.
4. The Department did not charge the county for the road right-of-way because the Department would no longer
   incur costs to maintain the road.
5. The Department exchanged real property interests with a fair market value of $1,350 for other real property
   interests having a greater fair market value.
6. The Department exchanged real property interests with a fair market value of $56,559 for other real property
   interests of equal or greater value.




                                                        11
                                                   APPENDIX 3


     STATE OF WYOMING
 GAME AND FISH DEPARTMENT
  SCHEDULE OF SITES VISITED

      Wildlife Habitat Management Areas
                   Greys River
             Kirk Inberg/Kevin Roy
                  Red Canyon
                   Soda Lakes
                Spence/Moriarity
             Springer/Bump Sullivan
                 Table Mountain
                  Whisky Basin
                  Wick/Beumee
              Public Access Areas
                Little Popo Agie
               Middle Popo Agie
           North Platte River - Various
                Regional Offices
                     Casper
                    Jackson
                     Lander
                    Pinedale
               Other Sites Visited
                 Alcova Reservoir
Auburn Fish Hatchery Big Bend Ponds, Riverton WY
             Boulder Rearing Station
                 Boyen State Park
            Dan Speas Rearing Station
                 Downar Bird Farm
                   Fremont Lake
                 Glendo State Park
            Lucky Ponds, Lander WY
               Pathfinder Reservoir
               Platte River Parkway
             Sinks Canyon State Park
  Sybille Wildlife Research and Education Center




                     12
                                                                              APPENDIX 4


                         STATUS OF AUDIT FINDINGS
                          AND RECOMMENDATIONS

 Recommendation              Status                          Action Required
A1, A2, A3, A4, A5   Finding Unresolved and    Provide a response to each recommendation
and B                Recommendation            that states concurrence or non-concurrence.
                     Unimplemented             Provide a corrective action plan that includes
                                               a target date and the official responsible for
                                               implementation of each recommendation or
                                               alternative solution.

                                               Unresolved findings and unimplemented
                                               recommendations remaining at the end of
                                               90 days (after July 16, 2004) will be referred
                                               to the Assistant Secretary for Policy,
                                               Management and Budget for resolution
                                               and/or tracking of implementation.




                                          13
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone - Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                800-424-5081
                             Washington Metro Area            202-208-5300
                             Hearing Impaired (TTY)           202-208-2420
                             Fax                              202-208-6081

              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
